CERTIFICATE OF SERVICE
NO. 19-496
Dish Network LLC
Petitioner(s)
v.
Thomas Krakauer
Respondent(s)
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the CRUISE
LINES INTERNATIONAL ASSOCIATION AMICUS AT PETITION STAGE IN SUPPORT OF PETITIONER(S), by
mailing three (3) true and correct copies of the same by USPS Priority mail, postage prepaid for
delivery to the following addresses:
E. Joshua Rosenkranz
Orrick, Herrington & Sutcliffe LLP
51 West 52nd Street
New York, NY 10019
(212) 506-5380
jrosenkranz@orrick.com
Counsel for DISH Network L.L.C.

Deepak Gupta
Gupta Wessler PLLC
1900 L Street, NW
Suite 312
Washington, DC 20036
(202) 888-1741
deepak@guptawessler.com
Counsel for Thomas H. Krakauer

Lucas DeDeus

November 18, 2019
SCP Tracking: Rose-169 South Rodeo Drive-Cover Cream

